Supreme Court Of The United States
Office of the Clerk
Washington, DC 20543-0001

Dervanna H. A. Troy-McKoy, Petitioner, Pro' Se
V.

Case No. 20-7117

Mount Sinai Beth Israel, Respondent

Petition for Rehearing

0-t
Dervanna H. A. Troy-Mc

/

y, Petitioner

6505 Winfield Blvd., Apt B11
Margate, Florida 33063
954-661-7110
Galaxy-gst@msn.com
Rubin, Fiorella, Friedman & Mercante LLP
630 Third avenue, Third Floor
New York, New York 10017
212-953-2381
miewels@rubinfiorella.com

RECEIVED
MAY 1 3 2021
FFICE OF THE CLERK
SUPREME COURT, U.S.

Grounds shall be limited to intervening
circumstances of a substantial or controlling effect
or to other substantial grounds not previously
presented. Petitioner is presented in good faith and
not for delay.
The justice system of the United States Of America
continue to look the other way while Petitioner
appeal for justice against the continued torture that
of FBI conspiracy subsequently had Mount Sinai
Beth Israel deliberately destroyed Petitioner's
Medical records, and deliberately cover up FBI

2

criminal attacks on Petitioner, had declared in
Petitioner's Writ for Certiorari.
Mount Sinai Beth Israel committed criminal
malpractice by destroyed Petitioner's Medical
record.
Mount Sinai Beth Israel (Sabrina Perry, supervisor)
requested Petitioner' medical Chart for the first
time from Customer Care Iron Mountain on April
18, 2017 (page 12).
FBI conspired with Iron Mountain and informed
Mount Sinai Beth Israel that Petitioner's Medical

3

Chart was destroyed on January 31,2015 in a carton
FB0000019673221 (page 12)
NOTE clearly: Iron Mountain did NOT say
Petitioner's Chart was destroyed in a fire
(Page 12), because Petitioner's Chart was not
destroyed in a fire on January 31, 2015.
FBI further conspired with Mount Sinai Beth Israel
and provide Petitioner a letter dated April 21, 2017
that Petitioner's medical records was destroyed in a
fire (page 13).

4

FBI further conspired with Mount Sinai Beth Israel
(Sabrina Perry, supervisor) who sworn that:
Page 14, # 4: "Mount Sinai Beth Israel was advised
on January 31, 2015 that Citistorage sustained a fire
damage, and as a result the Mount Sinai medical
files stored at that facility was destroyed"
Mount Sinai Beth Israel (Sabrina Perry, supervisor)
gross contradiction:
Page 14, #4 (later #4): "On April 18, 2017, Mount
Sinai was advised by Iron Mountain that the carton,
which contain which contain Dervanna H. A. Troy-

5

McKoy's medical files from Mount Sinai, was
destroyed in the January 31, 2015 Citistorage
facility fire".
It is clear that this was the first time on April 18,
2017, Mount Sinai Beth Israel was informed that
Petitioner's medical records was destroyed in a fire;
because Petitioner's medical records was NOT
destroy on January 31, 2015. It was destroyed on
April 18, 2017, the date Mount Sinai Beth Israel
(Sabrina Perry, supervisor) knowingly Petitioner was
NOT destroy and, therefore, requested it on said
date of April 18, 2017.

Therefore, Respondent lied and cover up FBI crimes
against Petitioner.
The records will show that Petitioner proceed his
lawsuit against Mount Sinai Beth Israel with a
Notice of claims, of which from the very outset,
Mount Sinai Beth Israel blatantly discriminated
against Petitioner by refused to properly address
Petitioner by Petitioner's name (page 10). However,
Petitioner asked the bearer to initial the envelope
10/2/17 (page 10). Hence, Petitioner timely file his
lawsuit against Mount Sinai Beth Israel.

7

Therefore, Petitioner asking the Court to grant
Petitioner relief of ten million nine hundred and
twenty thousands dollars ($ 10 920 000.000), which
was denied on April 19, 2021 (page 11).
It is further clear that there are crimes against
humanity in the United States of America (USA):

Pages 15,16, 24
Page 17

Mount Sinai Beth Israel created a

Fraudulent Signature against Petitioner's name
to destroyed Petitioner lawsuit against them.
8

Pages 18-22: FBI plant DRUGS in Petitioner's
apartment to murder Petitioner and claim
Petitioner over dose with Lisinopril medication.

Additional material
from this filing is
available in the
Clerk's Office.

